No. ______
_________________
IN THE SUPREME COURT OF THE UNITED STATES
_________________
JENNIFER MAE LEVIN,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.
__________________
ON PETITION FOR WRIT OF CERTIORARI TO THE FLORIDA FIFTH
DISTRICT COURT OF APPEAL
__________________
AMENDED APPLICATION FOR EXTENSION OF TIME TO FILE PETITION
FOR WRIT OF CERTIORARI
__________________

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
Florida Bar # 114227
2202-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
Email: ufferman@uffermanlaw.com
Counsel for the Petitioner

To the Honorable Clarence Thomas, Associate Justice of the Supreme Court of
the United States and Circuit Justice for the Eleventh Circuit:
Introduction
Pursuant to this Court’s Rule 13.5, the Petitioner, Jennifer Mae Levin,
respectfully requests a sixty-day extension of time within which to file a petition for
a writ of certiorari in this Court, to and including April 24, 2020.
Jurisdiction
The opinion of the Florida Fifth District Court of Appeal affirming the
Petitioner’s conviction was entered on November 26, 2019. Unless extended, the time
within which to file a petition for a writ of certiorari would expire on February 24,
2020.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257. A copy of the
opinion of the Florida Fifth District Court of Appeal is included in the appendix to this
motion.
Argument
The Petitioner will be seeking certiorari review of one issue: if the trial court
erred by denying the Petitioner’s motion for a judgment of acquittal.
Unfortunately undersigned counsel’s schedule requires him to seek an extension
of time in this case. In particular, during the next three months, undersigned counsel
will be attending two oral arguments before Florida appellate courts, seven
postconviction evidentiary hearings before Florida circuit courts, one Florida Bar

2

committee meeting, and will be out his office for two separate weeks traveling with his
family.1
Additionally, since the order of the Florida Fifth District Court of Appeal
affirming the Petitioner’s conviction was entered, undersigned counsel was out of his
office for one Florida Bar committee meeting and for one week traveling with his
family, and undersigned counsel participated in one postconviction evidentiary hearing
before a Florida circuit court and two oral arguments before a Florida appellate court.
Therefore, the Petitioner requests an extension of sixty days to file the petition
for a writ of certiorari. No party will be prejudiced by the granting of a sixty-day
extension in this case.
1

Undersigned counsel will appear at the following oral arguments: 1) January 14,
2020, Butler v. State, case number 1D18-2848, pending before the Florida First District
Court of Appeal; and, 2) January 14, 2020, Johnson v. State, case number 1D18-4640,
pending before the Florida First District Court of Appeal. Undersigned counsel will
be appearing at the following postconviction evidentiary hearings: 1) January 17, 2020,
in State v. Nierenberg, case number 2013-CF-15413, pending before the Florida Fourth
Judicial Circuit Court (Duval County); 2) January 31, 2020, in State v. Eckert, case
number 2012-CF-2967B, pending before the Florida Eighteenth Judicial Circuit Court
(Seminole County); 3) February 21, 2020, in State v. Lambert, case number 2007-CF6925, pending before the Florida Twelfth Judicial Circuit Court (Sarasota County); 4)
March 5, 2020, in State v. Abrakata, case number 2011-CF-506, pending before the
Florida Second Judicial Circuit Court (Gadsden County); 5) March 12, 2020, in State
v. DeCourcey, case number 2012-CF-77, pending before the Florida Second Judicial
Circuit Court (Franklin County); 6) April 9, 2020, in State v. May, case number 2016CF-355, pending before the Florida Tenth Judicial Circuit Court; and 7) April 20, 2020,
in State v. Smith, case numbers 2008-CF-1199, 2008-CF-1200, and 2012-CF-1150,
pending before the Florida Ninth Judicial Circuit Court (Osceola County).
Undersigned counsel will attend a meeting on February 7, 2020, of the Florida Bar
Criminal Law Certification Committee, of which he is the chair this year. Finally,
undersigned counsel will also be traveling with his family on 1) January 20-28, 2020;
and 2) March 16-20, 2020.

3

Accordingly, the Petitioner respectfully requests that an order be entered
extending the time to petition for writ of certiorari by sixty days.
Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
Florida Bar # 114227
2202-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
Email: ufferman@uffermanlaw.com
Counsel for the Petitioner

4

CERTIFICATE OF SERVICE
I, Michael Ufferman, a member of the Bar of this Court, hereby certify that on
the 15th day of January, 2020, a copy of this Application For Extension of Time To File
A Petition For A Writ Of Certiorari in the above-entitled case was mailed, first class
postage prepaid, to the Office of the Attorney General, 444 Seabreeze Boulevard,
Daytona Beach, Florida, 32118 (counsel for the Respondent herein). I further certify
that all parties required to be served have been served.
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
Florida Bar # 114227
2202-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
Email: ufferman@uffermanlaw.com
Counsel for the Petitioner

5

